No. 19-392

 

 

IN THE

Supreme Court of the United States

ManrtTIN A. ARMSTRONG,
Petitioner,
v.

SECURITIES AND EXCHANGE COMMISSION,
UNITED STATES COMMODITY FUTURES TRADING
COMMISSION, TANCRED SCHIAVONI, in his
capacity as temporary receiver, and
THE UNITED STATES OF AMERICA,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,989 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 18, 2020.

 

Wilson-Epes Printing Co., Inc.
